No. 20-1402

IN THE
SUPREME COURT OF THE UNITED STATES

STEPHEN HAMMONDS,
Petitioner,
v.
ROBERT THEAKSTON, M.D. and MATTHEW MARTIN,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

CERTIFICATE OF COMPLIANCE FOR
REPLY BRIEF FOR PETITIONER

Daniel Patrick Evans
G. Daniel Evans
The Evans Law Firm, P.C.
1736 Oxmoor Road, Suite 101
Birmingham, Alabama 35209
Telephone: (205) 870-1970
Fax: (205) 870-7763
E-Mail: dpevans@evanslawpc.com
E-Mail: gdevans@evanslawpc.com
Counsel for Petitioner

CERTIFICATE OF COMPLIANCE
I, Daniel Patrick Evans, counsel for Petitioner, certify that this document
complies with Sup. Ct. R. 33.2(b) because it contains 11 pages and 2,603 words,
excluding the parts of the brief exempted. The brief complies with the typeface and
type-style requirements of Sup. Ct. R. 33.1(b) because this document has been
prepared in a proportionately spaced typeface using WordPerfect, Version 20.0.0.200
in Century Schoolbook12-point font.
Dated: August 13, 2021.
s/ Daniel Patrick Evans
Daniel Patrick Evans
ASB-3209-R67G
G. Daniel Evans
ASB-1661-N76G
The Evans Law Firm, P.C.
1736 Oxmoor Road, Suite 101
Birmingham, Alabama 35209
Telephone: (205) 870-1970
Fax: (205) 870-7763
E-Mail: dpevans@evanslawpc.com
E-Mail: gdevans@evanslawpc.com
Attorneys for Petitioner

